            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF WISCONSIN
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2003

     February 2005   A-77-05-00007




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                   SOCIAL SECURITY
MEMORANDUM
Date:   February 9, 2005                                                 Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of Wisconsin for the Fiscal
        Year Ended June 30, 2003 (A-77-05-00007)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Wisconsin for the Fiscal Year ended June 30, 2003. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Wisconsin Legislative Audit Bureau performed the audit. The Department of Health
        and Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Wisconsin Legislative Audit
        Bureau and the reviews performed by HHS. We conducted our review in accordance
        with the Quality Standards for Inspections issued by the President’s Council on Integrity
        and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s programs
        are identified by CFDA numbers starting with 96. SSA is responsible for resolving
        single audit findings reported under these CFDA numbers.

        The Wisconsin Division of Vocational Rehabilitation (DVR) within the Department of
        Workforce Development (DWD) provides vocational rehabilitation services to individuals
        receiving Disability Insurance (DI) or Supplemental Security Income (SSI). SSA
        reimburses DVR for the direct costs of items purchased for these individuals, such as
        tuition payments and specialized equipment purchases. SSA also reimburses DVR for
        the indirect costs related to providing administrative, placement, and counseling
        services, and tracking and monitoring of work activity.
Page 2 – Candace Skurnik


The single audit reported that DWD did not maintain sufficient documentation to support
the reimbursement rate used to claim indirect costs from SSA for rehabilitation services
during Fiscal Years 2002 and 2003. Furthermore, DWD did not have written
procedures to show how the reimbursement rate was calculated. The corrective action
plan indicated that DWD will recalculate the indirect costs charged to SSA and make
necessary funding adjustments, and establish written procedures for indirect costs rate
calculations and documentation maintenance (Attachment A, pages 1 and 2).

We recommend that SSA:

1. Determine if the reimbursement rate used by DWD to claim indirect costs in Fiscal
   Years 2002 and 2003 resulted in inappropriate charges and collect any unallowable
   costs.

2. Ensure DWD established adequate written procedures for indirect costs
   reimbursement rate calculations and documentation maintenance.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                        S
                                        Patrick P. O’Carroll, Jr.
Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
